                                                                                         ll
                                                                                          !

                                                                                          II




@
$j!                                           OFFICE OFSCIENCE
                                             NATIONAL  INSPECTOR
                                                               FOUNDATION
                                                                 GENERAL
                                               OFFICE OF INVESTIGATIONS
                                                                                          i




 4
  0
     %o n+O
                                           CLOSEOUT MEMORANDUM
                                                                                               I\




Case Number: I02080022                                                               Page ':I of 1



       Preliminary Inquiry found that             may have submitted vouchers to improperli receive
       reimbursement for books related to classes funded through the                       program.
       Investigation of this matter was conducted and           admitted to improperly receiving
       reimbursement for the books. On                   Report of Investigation for this matter was
       forwarded to- 1                            Employee Relations Branch, Division of:~urnan
       Resource Management, Office of Information and Resource Management.                  ,
                                                                                                    I

       Subject voluntarily agreed to repay the unallowable charges ($169.00) via Agency ';~ayroll
       Deduction, commencing on                                            .                        It




       Accordingly, this case is closed.

                                                                                                         I1

                                                                                                          I




                                                                                                              I/                             I
                                                                                                                                             I
                                                                                                                   I1

                                                                                                                                             i



                                                                                                                    /I




                                                                                                                         \
                                                                                                                                             1
                                                                                                                             ,
                                                                                                                                             ,

                                                                                                                             1




                                                                                                                                 I




                                                                                                                                     I




                                               Attorney              Supervisor                                         AIGI
                         Investigator
                                                                                                                                         I



     Sign 1 date
                                                                                   NSF OIG Form 2 (1?102)
